<html>
<title> - FROM EARTHQUAKES TO TERRORIST ATTACKS: IS THE NATIONAL CAPITAL REGION PREPARED FOR THE NEXT DISASTER?</title>
<body><pre>[Senate Hearing 112-517]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-517

                 FROM EARTHQUAKES TO TERRORIST ATTACKS:
     IS THE NATIONAL CAPITAL REGION PREPARED FOR THE NEXT DISASTER?

=======================================================================

                             JOINT HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                 DISTRICT OF COLUMBIA SUBCOMMITTEE AND
 AD HOC SUBCOMMITTEE ON DISASTER RECOVERY AND INTERGOVERNMENTAL AFFAIRS

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 7, 2011

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






                  U.S. GOVERNMENT PRINTING OFFICE

72-561 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Michael L. Alexander, Staff Director
      Nicholas A. Rossi, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk
             Joyce Ward Publications Clerk and GPO Detailee
                                 ------                                

  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 RON JOHNSON, Wisconsin
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                Lisa M. Powell, Majority Staff Director
             Jessica K. Nagasako, Professional Staff Member
                         Eric Tamarkin, Counsel
               Rachel R. Weaver, Minority Staff Director
               Jena N. McNeill, Professional Staff Member
                      Aaron H. Woolf, Chief Clerk
                                 ------                                

 AD HOC SUBCOMMITTEE ON DISASTER RECOVERY AND INTERGOVERNMENTAL AFFAIRS

                   MARK L. PRYOR, Arkansas, Chairman
DANIEL K. AKAKA, Hawaii              RAND PAUL, Kentucky
MARY L. LANDRIEU, Louisiana          SCOTT P. BROWN, Massachusetts
JON TESTER, Montana                  RON JOHNSON, Wisconsin
                 Amanda Fox, Professional Staff Member
                       John Vocino, GAO Detailee
                Brandon Booker, Minority Staff Director
                       Kelsey Stroud, Chief Clerk










                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Akaka................................................     1
    Senator Pryor................................................     2
Prepared statement:
    Senator Pryor................................................    33

                               WITNESSES

                      WEDNESDAY, DECEMBER 7, 2011

Steward D. Beckham, Director, Office of National Capital Region 
  Coordination, Federal Emergency Management Agency, U.S. 
  Department of Homeland Security................................     5
Dean S. Hunter, Deputy Director, Facilities, Security, and 
  Contracting, U.S. Office of Personnel Management...............     7
William O. Jenkins, Jr., Director, Homeland Security and Justice 
  Team, U.S. Government Accountability Office....................     9
Richard Muth, Executive Director, Maryland Emergency Management 
  Agency, State of Maryland......................................    11
Hon. Terrie L. Suit, Secretary of Veterans Affairs and Homeland 
  Security, Commonwealth of Virginia.............................    13
Paul A. Quander, Jr., Deputy Mayor for Public Safety and Justice, 
  District of Columbia...........................................    15

                     Alphabetical List of Witnesses

Beckham, Steward D.:
    Testimony....................................................     5
    Prepared statement...........................................    35
Hunter, Dean S.:
    Testimony....................................................     7
    Prepared statement...........................................    40
Jenkins, William O., Jr.:
    Testimony....................................................     9
    Prepared statement...........................................    46
Muth, Richard:
    Testimony....................................................    11
    Prepared statement...........................................    70
Quander, Paul A., Jr.:
    Testimony....................................................    15
    Prepared statement...........................................    91
Suit, Hon. Terrie L.:
    Testimony....................................................    13
    Prepared statement...........................................    85

                                APPENDIX

Questions and responses for the Record from:
    Mr. Beckham..................................................   106
    Mr. Hunter...................................................   115
    Mr. Muth.....................................................   118
    Ms. Suit.....................................................   125
    Mr. Quander..................................................   131
Background.......................................................   143
Statement submitted by David F. Snyder for the Record............   151

 
                     FROM EARTHQUAKES TO TERRORIST
                    ATTACKS: IS THE NATIONAL CAPITAL
                 REGION PREPARED FOR THE NEXT DISASTER?

                              ----------                              


                      WEDNESDAY, DECEMBER 7, 2011

                                   U.S. Senate,    
                  Joint Hearing with the Oversight of      
          Government Management, the Federal Workforce,    
              and the District of Columbia Subcommittee    
                  and the Ad Hoc Subcommittee on Disaster  
                    Recovery and Intergovernmental Affairs,
                      of the Committee on Homeland Security
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittees met, pursuant to notice, at 2:32 p.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee on Oversight of Government 
Management, the Federal Workforce, and the District of 
Columbia, and Hon. Mark L. Pryor, Chairman of the Ad Hoc 
Subcommittee on Disaster Recovery and Intergovernmental 
Affairs, presiding.
    Present: Senators Akaka and Pryor.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. I call this joint hearing of the 
Subcommittee on Oversight of Government Management, the Federal 
Workforce, and the District of Columbia and the Ad Hoc 
Subcommittee on Disaster Recovery and Intergovernmental Affairs 
to order.
    I want to welcome our witnesses today. I want to say aloha 
and thank you for being here. Today, we will examine the 
National Capital Region's (NCRs) preparedness and response to 
natural and manmade disasters.
    The NCR is a region defined by statute including the 
District of Columbia, Maryland, Virginia, 11 local 
jurisdictions, three branches of the Federal Government, and 
over 5 million residents. More than 20 million tourists visit 
the NCR every year, and 340,000 Federal employees work in the 
area. So this is the size of that area.
    This is an appropriate time to explore the NCR's emergency 
preparedness and response capabilities as we celebrate the 70th 
anniversary of the surprise attacks on Pearl Harbor and we 
recently marked the tenth anniversary of September 11, 2001 
attacks. Both tragic events tested our Nation's preparedness, 
and September 11, 2001, exposed shortfalls in this region's 
readiness.
    The OGM Subcommittee's oversight of NCR's preparedness has 
spanned several Congresses. In partnership with my former 
colleague and dear friend Senator Voinovich, we held a series 
of hearings on this issue in 2005, 2006, and 2007, focusing 
largely on the region's poor strategic planning.
    This hearing will help us evaluate the NCR's latest 
strategic planning activities. The responses to recent 
emergencies, including the January 26, 2011 snowstorm that led 
to many hours of gridlock, and the East Coast earthquake in 
August have renewed concerns that the NCR still faces serious 
challenges in disaster preparedness and response 10 years after 
September 11.
    I was particularly troubled that the public, including 
Federal employees, received very little guidance in the 
immediate aftermath of the earthquake. I look forward to 
discussing how we can improve regional situational awareness 
and information sharing.
    NCR members must be able to communicate with each other, 
make informed decisions, and provide clear, consistent 
information to the public. Additionally, it is important for 
family members to be able to connect in the crucial hours after 
an unexpected event. Coordinating so many jurisdictions is 
challenging. However, it is essential that the region operates 
as a cohesive and unified body during emergencies.
    A Washington Post editorial argued for creating a regional 
structure with authority to direct incident response. NCR 
officials have recommended improvements within the existing 
framework. Recently, Senator Pryor and I requested that the 
Government Accountability Office (GAO) review whether the NCR's 
current system for preparedness and response is effective and 
efficient. I look forward to discussing how the NCR can be best 
prepared to protect the millions of people who live and work in 
the NCR and to preserve the many national treasures located 
here.
    I commend the Office of Personnel Management (OPM) for 
revising its dismissal and closure guidance in response to the 
January 2011 snowstorm and working with partner agencies and 
the Council of Governments (COGs) to get their input. These 
changes should help avoid future widespread gridlock, improve 
safety for Federal employees and others, and enhance continuity 
of Government operations. I also commend the Council of 
Governments for its review of the snowstorm and practical 
recommendations to improve coordination and information 
sharing.
    While today's hearing focuses on the Washington, D.C. area, 
the issues of preparedness and response are important for 
regional coordination in cities and States across the country. 
I would like to thank the members of the NCR for all of their 
hard work to keep us safe from harm.
    Let me now recognize Senator Pryor for his opening 
statement. Senator Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you, Mr. Chairman, and I would like to 
start today by recognizing that today's hearing coincides with 
the 70th anniversary of the surprise attacks on Pearl Harbor 
and reflect on that fateful day about the heroism that still 
inspires us today. But, Mr. Chairman, if you could, I know that 
you were actually an eyewitness to that event.
    Senator Akaka. Yes.
    Senator Pryor. Would you mind telling the Subcommittee here 
in just a couple of minutes about your recollections about 
that?
    Senator Akaka. Yes. Well, thank you, Senator Pryor. It was 
on Sunday, December 7, 1941. In Hawaii at that time, there were 
scattered clouds. It was a pretty nice day and we were getting 
ready for church. I was in a boarding facility there in the 
hills above Pearl Harbor, and about, oh, I would say about 
7:45, we detected some commotion down at Pearl Harbor and 
immediately heard some blasts. So we looked out of our windows 
and could see Pearl Harbor clearly.
    I must tell you, I saw them torpedo the battleships that 
were moored there and watched them sink in place, some of them, 
and also a squadron of Japanese planes flew over us. And we 
looked up and I was so surprised. They were green in color and 
they had those rising suns on the wings, so we knew it was from 
Japan. By then, the radio was beginning to report what was 
happening there, that Pearl Harbor was being attacked and that 
people should stay home. So that squadron that flew over us 
bombed and strafed Kanoehe Marine Station over the mountains. 
That was the beginning of a new era for the world and our 
Nation.
    The school that I was attending at that time was a military 
type of school. We were activated and sent up into the 
mountains for about a month, because we got information that 
there may be paratroopers landing in the hills and we had to 
protect the water systems. So, in a sense, immediately, we were 
engaged.
    What I did not know until later, when I read it, is 
immediately, the military government took over, and so Hawaii 
went under martial law and General Walter Short was placed as 
military Governor. I remember his first announcement was, ``All 
citizens in Hawaii will obey the commands of military 
officers,'' and that was the beginning.
    It was quite a sight, and for days, Virginia just burned. 
Black smoke kept rising for days out of those battleships. But 
our country did respond, and it took us some time, but we 
fought and won the war. The war changed this country and 
ultimately made it better, as well as the rest of the world.
    So thank you for giving me that opportunity. I do not 
usually talk about this, nor do I tell people about what I just 
told you, but that is what happened to me.
    Senator Pryor. Well, thank you for sharing that. The reason 
I wanted you to do that is because, obviously, that is an event 
that shaped the world and shaped United States history, but it 
also helped to shape you as a man and as a Senator----
    Senator Akaka. Yes.
    Senator Pryor [continuing]. So thank you for your service 
and thank you for sharing.
    I have a longer opening statement that I will submit for 
the record, but Washington, D.C. has gone through some recent 
weather events and other things and we see continued gridlock 
in communications. We see gridlock in traffic. It just raises 
questions about are there leadership gaps here? Is there 
bureaucratic fragmentation that needs to be addressed, without 
knowing who is responsible in an emergency? It is a good time 
for us to sit back and ask these sometimes hard questions about 
what is going on in the D.C. region.
    Now, I will say that the emergency responders work 
tirelessly to keep the Capitol itself safe and keep the Capital 
Region safe from harm, and they deserve our recognition for 
their great service. The size of this metropolitan area and the 
multiple State and local governments that have to be 
coordinated is quite a challenge, and also the unique threats 
to this area present a challenge, and we understand that, but I 
think this is part of our oversight, to ask these questions.
    But there is a huge risk in not being prepared. The Federal 
Government in Washington, D.C. obviously is the nerve center, 
command and control for all the Nation's military, all of our 
diplomatic missions, all of our government, all of our 
emergency response all over the country in the event that we 
have another September 11, 2001, or Pearl Harbor type of event, 
heaven forbid that we do. This area is absolutely critical to 
keeping things going around the country and around the world as 
we need them to.
    So we also have to understand that in this very difficult 
budget cycle and this economy, with revenues being down and we 
are seeing layoffs, we are seeing tightening of belts in the 
various public entities, from the Federal Government on down to 
local government, we understand that it is a time to also look 
at efficiencies and try to make sure that we eliminate any 
inefficiencies, any wasted steps, and try to make sure that we 
squeeze every single dollar we can for preparedness and get us 
over the finish line like we want to.
    So today, we are talking about improving coordination here 
in the National Capital Region for emergency preparedness, but 
we also need to keep our eye on the larger ball of preparedness 
around the Nation. One example in our region would be Memphis, 
Tennessee, which is a big metropolitan area. It has the 
heaviest population in that little region of the country. But 
Memphis and that area has a very large impact on Eastern 
Arkansas, Northern Mississippi, Western Tennessee, and even the 
southern parts of Kentucky, Illinois, Missouri, down in there, 
because they all sort of touch down in that area. And so if 
something terrible were to happen in Memphis, because it is 
such a huge transportation and media and health services 
center, it would clearly have an impact on the rest of the 
region.
    In October, our two Subcommittees collaborated on a 
Government Accountability Office request asking for further 
examination of the National Capital Region's current system of 
an all hazards preparation. Today's hearing will serve as a 
jumping off point for GAO. It will also help us determine what 
we can do and Congress to ensure that our Nation's cities are 
equipped to respond effectively to emergencies.
    So, Mr. Chairman, thank you, and I look forward to hearing 
from the witnesses.
    Senator Akaka. Thank you very much, Senator Pryor. I look 
forward to hearing from our panel of witnesses, also, and I 
want to say mahalo, thank you, again, for your participation.
    We have Steward Beckham, the Director of the Office of 
National Capital Region Coordination at the Federal Emergency 
Management Agency (FEMA); Dean Hunter, Deputy Director of 
Facilities, Security, and Contracting at the Office of 
Personnel Management; Bill Jenkins, Director of the Homeland 
Security and Justice Team at the Government Accountability 
Office; Richard Muth, Executive Director of the Maryland 
Emergency Management Agency; Terrie Suit, Secretary of Veterans 
Affairs and Homeland Security for the Commonwealth of Virginia; 
and Paul Quander, Deputy Mayor for Public Safety and Justice 
for the District of Columbia.
    It is the custom of this Subcommittee to swear in all 
witnesses. I would ask that each of you stand and raise your 
right hand.
    Do you solemnly swear that the testimony you are about to 
give this Subcommittee is the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Beckham. I do.
    Mr. Hunter. I do.
    Mr. Jenkins. I do.
    Mr. Muth. I do.
    Ms. Suit. I do.
    Mr. Quander. I do.
    Senator Akaka. Thank you very much. Let it be noted for the 
record that the witnesses answered in the affirmative.
    Before we start, I want you to know that your full written 
statement will be part of the record, and I would also like to 
remind you to please limit your oral remarks to 5 minutes.
    Mr. Beckham, will you please proceed with your statement.

    TESTIMONY OF STEWARD D. BECKHAM,\1\ DIRECTOR, OFFICE OF 
    NATIONAL CAPITAL REGION COORDINATION, FEDERAL EMERGENCY 
    MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Beckham. Thank you. Good afternoon, Chairman Akaka, 
Ranking Member Johnson, Chairman Pryor, and Ranking Member 
Paul, and other distinguished Members of the Subcommittees. I 
am Steward Beckham, Director of the Federal Emergency 
Management Agency's Office of National Capital Region 
Coordination (ONCRC). I appreciate the opportunity to appear 
before both Subcommittees today to discuss the way FEMA 
coordinates with our local, State, and Federal partners in the 
National Capital Region.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Beckham appears in the appendix 
on page 35.
---------------------------------------------------------------------------
    NCRC was established by Congress in the Homeland Security 
Act of 2002. Along with other preparedness offices, NCRC was 
transferred to FEMA after passage of the Post-Katrina Emergency 
Management Reform Act (PKEMRA), in 2007. NCRC's mission is to 
oversee and coordinate Federal programs for and relationships 
with State, local, and Federal authorities. My office works 
closely with Federal, State, local, and private sector partners 
to enhance preparedness in the National Capital Region.
    My participation with the NCR Senior Policy Group (SPG), is 
one example of NCRC's engagement with stakeholders. As the NCRC 
Director, I represent the Department of Homeland Security (DHS) 
and FEMA. As you will hear from my colleagues, Richard Muth and 
Terrie Suit, the SPG is comprised of the Homeland Security 
Advisors and Chief Emergency Managers for Virginia, Maryland, 
and the District of Columbia.
    The SPG plays a key role in sustaining a coordinated 
regional approach to homeland security and strengthening 
integrated decisionmaking and planning. Other partners include 
the Joint Federal Committee, which is comprised of members from 
the Legislative, Executive, and Judicial Branches, the 
Emergency Preparedness Council, the Metropolitan Washington 
Council of Governments, and many other NCR officials. NCRC 
actively engages with chief administrative officers, public 
health officials, first responders, emergency managers, leaders 
from the private sector, and nonprofit communities and other 
stakeholders in support of homeland security efforts.
    With NCR partners, NCRC plans, leads, or participates in 
exercises, drills, and events that occur with frequency in this 
region. Consistent with our statute, NCRC provides the 
technical support to State and local partners. 
Interoperability, and regional risk are two examples.
    Additionally, NCRC provides NCR-specific situational 
awareness to NCR partners through the FEMA-NCR Watch Desk. The 
NCR Watch Desk is the sole source of NCR-specific situational 
awareness at DHS. The Watch Desk links Federal, State, and 
local partners. This includes selected Federal agencies that 
are strategically located but that would otherwise not be a 
part of the homeland security or emergency management 
information system. The above efforts bolster information 
exchange and integrated planning.
    In accordance with the National Response Framework, 
emergencies are managed locally. During a disaster, the States 
and the District maintain their sovereign authorities and work 
with FEMA Region III to obtain direct assistance for unmet 
needs or other aid approved by the President under the Robert 
T. Stafford Disaster Relief and Emergency Assistance Act. 
During an incident, FEMA's operational entities have lead for 
the agency. If needed, NCRC is able to augment FEMA Region III 
and support the Federal Coordinating Officer by providing 
enhanced situational awareness and consequence analysis 
capabilities, coordination with NCR partners and agency 
representatives through NCR Operation Centers.
    Unfortunately, sometimes non-Stafford Act incidents take on 
a greater significance because of the sheer amount of commuter 
traffic within the National Capital Region. This occurred 
during the winter storms when Federal Government operations in 
the NCR were officially suspended. Federal agencies follow the 
guidelines set by the Office of Personnel Management to ensure 
the safety of their employees. NCRC and State and local 
partners worked with OPM and provided input as the agency 
developed its newly released guidelines. The decision to close 
Federal Government operations in the region rests with OPM.
    The Subcommittee has asked me to say a few words about the 
NCR's Homeland Security Strategic Plan, which was created by 
the NCR, the Emergency Preparedness Council (EPC). The EPC 
includes elected and appointed officials from Federal, State, 
and local government as well as private sector and nonprofit 
leaders. I participate along with these other leaders.
    During 2010, NCR partners updated the Strategic Plan. The 
NCR Strategic Plan, along with other State, local, and national 
plans serves as a road map for strengthening capabilities to 
realize the NCR's vision for a safe and secure region. Major 
goals included in the NCR Strategic Plan are enhanced 
interoperable communications, enhanced information sharing and 
situational awareness, including the communication of accurate, 
timely information with the public, the enhancement of critical 
infrastructure protection and further development of core 
capabilities such as mass care and coordinated alert and 
warning systems.
    In drafting the 2010 Strategic Plan, NCR partners built on 
the principles agreed to in developing the 2006 strategic plan. 
The four principles are inclusion of NCR partners, provision of 
a variety of forms for stakeholder involvement, respect for 
jurisdictional authority, and assuring the preparedness needs 
are reflected across all jurisdictional boundaries. There was a 
thorough process to provide extensive input and review by 
subject matter experts in the public, private, and nonprofit 
sectors. NCR leaders on the Emergency Preparedness Council, 
which is responsible for the Strategic Plan, as well as the SPG 
and chief administrative officers provided input at all stages 
of the process.
    In conclusion, FEMA will continue to support and 
collaborate with our regional partners to prepare for, prevent, 
protect against, respond to, recover from, and mitigate all 
hazards. Building on decades of regional collaboration, 
Federal, State, local, and regional partners remain committed 
to a common vision of working together toward a safe and secure 
NCR.
    Chairmen Akaka and Pryor, Ranking Members Johnson and Paul, 
and Members of the Subcommittee, this completes my prepared 
statement. I would be pleased to respond to any questions that 
you may have at the conclusion of these remarks.
    Senator Akaka. Thank you very much, Mr. Beckham.
    Mr. Beckham. Thank you.
    Senator Akaka. Mr. Hunter, will you please proceed with 
your statement.

 TESTIMONY OF DEAN S. HUNTER,\1\ DEPUTY DIRECTOR, FACILITIES, 
 SECURITY, AND CONTRACTING, U.S. OFFICE OF PERSONNEL MANAGEMENT

    Mr. Hunter. Good afternoon, Chairman Akaka, Chairman Pryor, 
Ranking Member Johnson, Ranking Member Paul, and distinguished 
Members of the Subcommittees. My name is Dean Hunter and I am 
the Deputy Director for Facilities, Security, and Contracting 
at the U.S. Office of Personnel Management. In this position, I 
have primary responsibility for security and emergency 
management at OPM.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hunter appears in the appendix on 
page 40.
---------------------------------------------------------------------------
    Thank you for allowing me the opportunity to appear before 
you today to discuss OPM's role in hazards affecting the 
operational status of the National Capital Region as well as 
our partnerships with FEMA and other Federal, State, and local 
emergency management entities.
    By law, individual Federal agencies possess the authority 
to manage their workforces and to determine the appropriate 
response during emergencies. Nonetheless, in order to 
facilitate a consistent and coordinated approach on a region-
wide basis, Federal, State, and local authorities have 
traditionally looked to OPM to determine the operating status 
of the Federal Government across the D.C. area. OPM maintains a 
24-hour operations center to actively monitor unfolding events.
    As emergencies arise, our standard protocols include 
participation in conference calls hosted by the Metropolitan 
Washington Council of Governments (MWCOG) in order to develop 
situational awareness, facilitate the exchange of information, 
and coordinate communications and response efforts among 
Federal, State, and local agencies and other stakeholders. 
Participants in these structured calls typically include over 
100 Federal, State, and local partners in all applicable 
disciplines, including weather, transportation, emergency 
management, law enforcement, utility companies, and school 
districts.
    The collaborative feedback of this network of stakeholders 
drives OPM decisions during emergencies. Ultimately, OPM's 
decision serves to carefully balance the safety and security of 
the Federal workforce and the public with the need to maintain 
the continuity of government operations.
    Once made, a rapid dissemination of the OPM decision takes 
many forms, from direct notification to media outlets, to 
posting on the OPM webpage and call-in line, notification to 
COG, Chief Human Capital Officers (CHCO), the White House and 
Congress, to e-mail alert notifications to subscribed 
employees, Washington Area Warning Alert System (WAWAS) 
notification, and updating social media, including Twitter and 
Facebook.
    We review and update our dismissal and closure policies on 
an annual basis in order to continue to ensure that we are able 
to make the most well informed and timely decisions. For 
example, Federal offices in the National Capital Region were 
closed for four consecutive days during the historic snowstorm 
of February 2010. Partly in response, last year, we updated our 
policies to add ``Unscheduled Telework'' as a new operating 
status option for agencies to provide their employees the 
ability to telework and maintain continuity of operations.
    This year, we participated in an interagency review effort 
with our partners in COG to examine potential emergency 
management improvements in the National Capital Region. The 
resulting COG report, issued on November 9, details a number of 
recommendations to improve regional coordination and 
communication, including the establishment of a Regional 
Incident Coordination (RIC) Program as well as a Virtual Joint 
Information Center (VJIC) to provide consistent messaging.
    Our collaboration with COG and the Chief Human Capital 
Officers also led to the incorporation of additional options to 
our D.C. Dismissal Guide, including shelter in place, an early 
dismissal with a fixed final departure time, and an immediate 
departure option. We do not contemplate issuing these 
announcements very often, but have added them to our tool kit 
to illustrate the full range of potential emergency situations 
that agencies might face, which will help agencies plan for 
emergency situations.
    We are committed to making operating status decisions as 
far in advance as feasible in order to reduce uncertainty and 
minimize demands upon transportation infrastructure. It will 
always remain our goal to have employees home safely prior to 
the onset of a dangerous condition.
    For anticipated late afternoon weather events, OPM will 
consider the most strategic options. For example, OPM could use 
unscheduled leave/unscheduled telework at the beginning of the 
day to reduce traffic into the city and, if necessary, followup 
with a staggered departure announcement with a final departure 
time after the workday has begun if conditions deteriorate 
sooner than originally forecast.
    OPM maintains a strong working relationship with FEMA's 
Office of National Capital Region Coordination. Working 
together, we have developed a strategic plan and concept of 
operations plan for catastrophic events as well as two tabletop 
emergency preparedness training exercises. We are expanding our 
efforts in the coming year to develop a Web-based preparedness 
course and an NCR Federal Workforce Preparedness brochure. We 
will continue to leverage those relationships and utilize the 
lessons learned from each of them to improve decisionmaking and 
communication in the interest of enhancing the safety of the 
Federal workforce and the public.
    Thank you for this opportunity. I am happy to address any 
questions you might have.
    Senator Akaka. Thank you very much, Mr. Hunter.
    Mr. Jenkins, will you please proceed with your statement.

 TESTIMONY OF WILLIAM O. JENKINS, JR., \1\ DIRECTOR, HOMELAND 
   SECURITY AND JUSTICE TEAM, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Jenkins. Thank you, Chairman Akaka and Chairman Pryor. 
I appreciate the opportunity to participate in today's hearing 
on the status of efforts to enhance disaster preparedness in 
the National Capital Region. My statement today focuses on the 
NCR's latest Strategic Plan, issued in 2010.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Jenkins appears in the appendix 
on page 46.
---------------------------------------------------------------------------
    Basically, preparing for disasters requires identifying 
risk and potential consequences and identifying what needs to 
be done, by whom, and how well it should be done. For example, 
this includes identifying, first, the nature of the risk faced 
in specific geographic areas; second, the types and scale of 
the potential consequences arising from these risks; third, the 
desired outcomes in addressing those consequences; fourth, the 
capabilities needed to achieve those desired outcomes, 
including command and control; fifth, who should fund, develop, 
and maintain specific capabilities; and sixth, metrics for 
assessing whether needed capabilities are available for 
deployment.
    Well crafted and executed operational plans are critical to 
effective disaster preparedness and response, but sound 
strategic planning is also critical. A coordinated strategy to 
establish and monitor the achievement of regional goals and 
priorities is fundamental and can provide a guide and framework 
for operational planning.
    We compared the NCR's 2010 Strategic Plan and its 
supporting documents with six desirable characteristics we have 
identified for strategic plans to support complex undertakings, 
such as NCR preparedness. We reviewed the content of the plan 
and its associated documents, such as investment plans, but we 
did not evaluate whether or how well NCR has fostered and 
implemented or coordinated its capability efforts. Work remains 
in completing the plans, tasks, milestones, and metrics for 
implementing the Strategic Plan and we are initiating work on 
the NCR's preparedness in response to a request from these two 
Subcommittees.
    Overall, we found that the Strategic Plan generally 
addressed each of the six characteristics and is more 
comprehensive than its 2006 predecessor.
    Briefly, with regard to each characteristic, we found, 
first, the purpose, scope, and methodology of the plan is 
reasonably clear. It focuses on investments in new and existing 
capabilities, primarily those funded by Urban Area Security 
Initiatives (UASI) grants, and the support of NCR 
jurisdictions' execution of their own operational plans.
    Second, problem definition and risk assessment. The plan 
generally addresses the particular problems and threats 
identified for the region. It clearly updates and prioritizes 
goals from the previous version and the NCR says it will be 
making decisions soon about the timing and methodology of the 
next risk assessment.
    Third, goals, subordinate objectives, and activities and 
performance measures. The strategy describes what it is 
intended to achieve and steps over the next 3 to 5 years to do 
that. However, the performance plan to monitor progress is not 
yet complete and NCR officials said that subject matter experts 
are currently completing progress reports on the metrics to be 
used for each of the strategy's initiatives.
    Fourth, resources, investments, and risk management. The 
strategy includes information and processes designed to help 
address what it will cost to implement the strategy, including 
the investments needed and the sources and types of resources 
to support them. The strategy includes 16 investment plans that 
are currently out for NCR partner comment. We did not evaluate 
how well each investment plan's content is designed to achieve 
the objectives it is intended to support.
    One concern we have is the Strategic Plan's principle focus 
on UASI grant resources. Beginning in our 2004 report on the 
NCR, we have expressed the need for the NCR to explicitly and 
fully consider the totality of resources available within the 
region to achieve preparedness objectives. Moreover, the plan 
does not identify or explicitly consider in-kind resources that 
may be available from the Department of Defense, the National 
Guard Bureau, or the Department of Health and Human Services.
    Fifth, organizational roles, responsibilities and 
coordination. The Strategic Plan's Governance Appendix details 
the roles and responsibilities of the various NCR organizations 
involved in all hazard preparedness. For example, the Emergency 
Preparedness Council is described as the body providing 
oversight of the Regional Emergency Coordination Plan and the 
Strategic Plan to identify and address readiness gaps.
    Finally, sixth, integration and implementation. The 
strategy addresses how it is intended to integrate with the 
various NCR jurisdictions, strategies, goals, objectives, and 
activities and their plans to implement the strategy. An 
appendix describes how NCR's strategic plan aligns with 
national, State, and local strategies with the goal of 
identifying common goals, objectives, and initiatives to be 
implemented by the region.
    In conclusion, a well defined, comprehensive Homeland 
Security Strategic Plan whose implementation is tracked and 
measured is an essential component of effective preparedness. 
The ultimate value of a Strategic Plan, no matter how well 
done, is its usefulness as a guide for policy and 
decisionmakers in setting priorities, allocating resources, and 
balancing risk and resource limitations. Having developed a 
generally good Strategic Plan, the NCR now faces the challenge 
of effectively implementing it and we will be following the 
NCR's efforts as it does so.
    Mr. Chairman, that concludes my remarks. I would be pleased 
to respond to any questions you or other Members of the 
Subcommittee may have.
    Senator Akaka. Thank you very much, Mr. Jenkins.
    Mr. Muth, will you please proceed with your statement.

  TESTIMONY OF RICHARD MUTH,\1\ EXECUTIVE DIRECTOR, MARYLAND 
         EMERGENCY MANAGEMENT AGENCY, STATE OF MARYLAND

    Mr. Muth. Good afternoon Members of the Subcommittee. It is 
an honor to be invited here today to discuss our shared 
commitment to ensure the National Capital Region is prepared 
for emergencies. My name is Richard Muth and I am the Executive 
Director of Maryland Emergency Management Agency.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Muth appears in the appendix on 
page 70.
---------------------------------------------------------------------------
    I bring nearly 40 years of experience at both the local and 
State level to bear on these issues. I have been the State 
Director for Emergency Management for about 4 years. Previous 
to that, I spent 33 years at the local level, first as a 
firefighter, emergency medical technician, and then retiring as 
the Baltimore County Emergency Manager to come to the State. 
The reason I state that is I am not your academic on this 
Subcommittee. I am kind of the rubber-hits-the-road type of guy 
here.
    The Maryland Emergency Management Agency is the lead agency 
for coordinating emergency preparedness planning, response, and 
recovery during and after significant events, and that is for 
the entire State of Maryland. Local police, fire, and emergency 
medical personnel are almost always the first to respond to 
emergencies. When they exhaust their capabilities or need 
additional resources, they turn to the State. We coordinate the 
Maryland State and local agencies while also working with our 
regional partners in the District of Columbia and Virginia.
    We work not just during disasters, but every day with our 
local jurisdictions and our regional partners to improve the 
National Capital Region's response. We do this based on a 
strong regional strategic plan, through everyday interactions 
and exercises and standing regional work groups, as well as by 
supporting innovative communications and technology tools.
    The first moments of any emergency event that occurs 
without warning are inherently chaotic and confusing. Initial 
confusion often leads to cascading effects as the individual 
decisions aggregate into a broad, far-reaching consequence. 
That is what happened during the earthquake. Initial confusion 
led to the public reaction and resulted in congested roads, 
slow transit, and tied-up networks, et cetera.
    Public safety radio communications, however, were not 
impacted during either the January 26 storm or the earthquake. 
This is a result of significant effort in the region to ensure 
that our first responders have interoperable and redundant 
communications systems no matter the situation.
    Our focus in Maryland is and will continue to be to build a 
resilient community. A resilient community has three primary 
elements: Resilient systems and utilities, resilient community 
planning, and a resilient citizenry. Resilient utilities 
quickly come back online after disruption because of 
redundancy. A resilient communications network is both 
redundant and robust for first responders. A resilient 
citizenry has been educated on what to do and can support 
emergency responders by keeping themselves safe and out of 
harm's way.
    Since January of last year, we have made changes that we 
believe will continue to improve our capabilities. We have 
invested in the Virtual Joint Information Center that will 
improve our coordinated and public messaging, invested in 
regional situation awareness, including the new Regional 
Information Center, and we continue to invest significant time, 
effort, and funds to build resilient communications for our 
responders.
    We have not stopped our efforts there. Other critical 
systems have been improved, as well. Maryland has expanded the 
availability of shared video cameras from 45 in 2009 to just 
under 600 today. In August, we launched a new Public Emergency 
Management Mapping System called OSPREY, to get needed 
information to the public during an emergency, and just in the 
past quarter, it has had over a quarter-of-a-million hits.
    Everyone in the region also uses a single incident 
management software, WebEOC, that allows us to seamlessly share 
information, and that system is constantly being improved.
    I wanted to talk a little bit about the evacuation comments 
that come up from time to time. For the first time in recent 
memory, Maryland had a mandatory evacuation of the barrier 
islands of Ocean City during Hurricane Irene, and we also had a 
hospital and two nursing homes evacuate. This successful, 
orderly, and proactive evacuation of approximately a quarter-
of-a-million people took just under 24 hours to complete. An 
evacuation of the District or the NCR would be exponentially 
more complicated and a significantly more time consuming 
effort, even if prior notice is available. One thing to keep in 
mind is evacuation is an option of the last resort, not an 
option of the first resort.
    Maryland, together with regional partners, has developed an 
integrated model for evacuation plans that is being used not 
just throughout the National Capital Region, but also in other 
States to create fully coordinated plans. New state-of-the-art 
computer models are being used to validate, test, and improve 
these plans.
    To conclude, I would like to urge a shared investment in 
the foundations of preparedness, building this resilient 
community I mentioned and its citizenry. The region, the State 
of Maryland, and the Nation should look for ways to educate 
young people in how to be ready for an emergency. We should 
work to engage private businesses in preparedness and for their 
support during a response. Maryland is already working toward 
those goals. My agency on January 1 will be launching the 
Maryland Office of Resiliency. We must educate our citizens and 
engage them in their own preparedness. A prepared public will 
help to lift the heavy burden placed on emergency workers, 
whether during a snowstorm or a terror attack, by keeping 
themselves safe.
    Thank you.
    Senator Akaka. Thank you very much, Mr. Muth.
    Ms. Suit, please proceed with your statement.

  TESTIMONY OF HON. TERRIE L. SUIT,\1\ SECRETARY OF VETERANS 
    AFFAIRS AND HOMELAND SECURITY, COMMONWEALTH OF VIRGINIA

    Ms. Suit. Chairman Akaka, Chairman Pryor, on behalf of 
Governor McDonnell and the Commonwealth of Virginia, I want to 
thank you for the opportunity to testify here before you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Suit appears in the appendix on 
page 85.
---------------------------------------------------------------------------
    Virginia shares an outstanding relationship with our 
partner jurisdictions and responders in the National Capital 
Region. I would like to recognize our outstanding public 
servants, the area's first responders, who are among the finest 
in the Nation. They responded in an exemplary manner on 
September 11, 2001 when Arlington, Virginia, was attacked at 
the Pentagon by terrorists, and they continue to respond every 
day to the emergencies in this region. We could not be prouder 
of them.
    Virginia is home to nearly 48 percent of the NCR's 
citizens. Our local counties and cities have what is called a 
manager form of government as opposed to an elected executive 
or a strong mayoral chair. These managers are the appointed 
administrative officers and are vested with the authority 
necessary to manage the operations of their respective 
jurisdictions. Our emergency professionals follow the National 
Incident Management System (NIMS) during emergency events. With 
the exception of Arlington, highways as well as secondary roads 
in Virginia are managed by the State through the Virginia 
Department of Transportation (VDOT).
    Virginia works with our NCR partners to accomplish 
strategic planning and training through multiple organizations, 
such as the NCR Senior Policy Group, the Chief Administrative 
Officers (CAOs) Homeland Security Executive Committee, the NCR 
Emergency Preparedness Council (EPC), the Regional Emergency 
Support Function (RESF) Committees--there are 16 of those--and 
the Regional Programmatic Working Groups, five, all of which 
collaborate to assist the SPG and the CAOs with the evaluation 
and the updating of the NCR Strategic Plan. We spend a lot of 
time together here in the capital.
    NCR preparedness is ongoing. Virginia has recently 
completed our updated evacuation plan for Northern Virginia, 
and participants in this planning included both local, Federal, 
and District partners. Considerable planning has been done to 
prepare for both subsequent attacks on the Pentagon, to include 
annual exercises with participants from across the region, and 
other potential emergencies. NCR health partners have 
collaborated on response plans for biological, radiologic, and 
chemical events.
    NCR decisionmakers coordinate in advance of and during 
emergencies through numerous information sharing platforms. 
These include e-mail, text alert, conference calls facilitated 
via RICCS as well as information sharing tools such as WebEOC, 
the Metropolitan Area Transportation Operations Coodination 
(MATOC), which is transportation related, and common operating 
pictures through VIPER and RITIS. These are geospatial 
pictures. The Washington Area Warning and Alert System provides 
a ``when all else fails'' means for communications to over 200 
facilities.
    To facilitate face-to-face decisionmaking, Virginia has 
colocated our regional decisionmakers for the Virginia 
Department of Transportation, Emergency Management, and State 
Police in a 24/7 operations center at the Fairfax, Virginia 
Public Safety Tactical Operations Center (PSTOC).
    In addition to daily use radios, we have two strategic 
radio caches in the NCR. Each cache contains over 500 portable 
radios, satellite communications capabilities, and 
interoperability devices that can connect NCR jurisdictions as 
well as Federal entities.
    General preparedness messaging is ongoing. Virginia is 
currently engaged in our Winter Preparedness Campaign and 
citizens can learn how to prepare for the season by accessing 
www.readyvirginia.gov, and this information is available to all 
of the NCR residents. For commuters, this is the time to 
prepare vehicles and acquire appropriate winter wear. Most 
importantly, commuters need to be prepared to stay in place 
when travel conditions are projected to be unsafe.
    Transportation capacity is always an issue in the NCR. On a 
normal workday, the workforce has a staggered commute. In an 
emergency, the workforce tends to leave all at once, which 
creates gridlock. Staying in place is critical for managing 
through current and preventing subsequent emergencies, and 
staying in place means that citizens need to plan in advance 
for the care of loved ones, know the emergency plans for their 
children's schools and care centers, and share their own plans 
with care providers and loved ones in advance in case the phone 
and cell service in the region is interrupted. These are all 
the messages that we are constantly putting out and 
aggressively putting out today. Citizens need to monitor 
weather and commuting conditions.
    The NCR Public Information Officer (PIO) Committee has 
established the NCR Virtual Joint Information Center, which 
just went live 2 days ago. This is at 
www.capitalregionupdates.gov, and this is a single web stop for 
the public to access all current NCR event information and to 
sign up for text and e-mail alerts.
    Emergencies are localized events. The vast geography of the 
NCR means it may be sunny in one part of the area but snowing 
in another, and that is why bottom-up incident management is 
the national standard. Responders and emergency officials on 
the ground are empowered with delegated authorities from their 
principals to make the public safety decisions necessary to 
protect our citizens. This is NIMS. This is the National 
Response Framework. All of our responders are Incident Command 
System (ICS) trained and that is how we manage incidents, from 
the bottom up.
    Every incident provides the opportunity for lessons 
learned. The events of January and the earthquake have helped 
to change policy, and we embrace the new policies that OPM has 
committed to enact going forward.
    By abiding by the National Response Framework and employing 
the National Incident Management System, we are able to 
successfully manage our events, and understanding these 
systems, avoiding policy decisions that will confuse or 
conflict with this doctrine is critical to our ability to 
continue to effectively respond to emergencies.
    Mr. Chairman, thank you for allowing me to testify today.
    Senator Akaka. Thank you very much, Ms. Suit.
    Mr. Quander, will you please proceed with your statement.

 TESTIMONY OF PAUL A. QUANDER, JR.,\1\ DEPUTY MAYOR FOR PUBLIC 
            SAFETY AND JUSTICE, DISTRICT OF COLUMBIA

    Mr. Quander. Thank you. Good afternoon, Chairman Akaka and 
Chairman Pryor. My name is Paul Quander. I serve the District 
of Columbia as the Deputy Mayor for Public Safety and Justice. 
In that role, it is my responsibility to provide direction, 
guidance, support, and coordination to the District's public 
safety agencies to develop and lead interagency public safety 
initiatives that improve the quality of life in the District of 
Columbia.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Quander appears in the appendix 
on page 91.
---------------------------------------------------------------------------
    As the Nation's Capital, we share our borders with the 
Commonwealth of Virginia and the State of Maryland. In the 68.3 
square miles that we call home, there are 40 bridges and 
numerous tunnels and overpasses. There are 1,500 miles of 
public roads in the city. All three branches of our Federal 
Government are located within the boundaries of the city. 
Additionally, the District hosts 45,300 businesses, 17 colleges 
and universities, and four military installations. According to 
the 2010 U.S. Census, the District of Columbia has over 601,000 
residents and our population increases every day. New 
construction projects continue and signs of growth and vitality 
show themselves every day.
    Each day, we welcome between 600,000 and 1,000,000 people--
commuters, visitors, and students--into the District on our 
roads and our rails. These commuters come into the city from 
Maryland, Virginia, West Virginia, Pennsylvania, and Delaware 
every day. Further, the city hosts more than 15 million 
visitors annually, according to information gathered from 
Destination D.C. and the National Park Service (NPS).
    One of the many agencies that I provide oversight to is the 
D.C. Homeland Security and Emergency Management Agency (HSEMA), 
whose mission is to support and coordinate homeland security 
and emergency management efforts, ensuring that the District of 
Columbia's all hazards emergency operations are prepared to 
protect against, plan for, respond to, and recover from natural 
and manmade hazards. This is accomplished by developing plans 
and procedures to ensure emergency response and recovery 
capabilities for all emergencies, coordinating emergency 
response allocation for emergencies in disaster incidents, 
providing training for all emergency responders, and 
coordinating all major special events and street closings.
    In addition and in furtherance of this mission, HSEMA also 
provides public awareness and outreach programs as well as a 
24-hour emergency operations center which has special 
capabilities and serves as one of the region's central points 
of communication during regional emergencies.
    One of the agency's unique capabilities is that it serves 
as the Regional State Administrative Agency (SAA), for the 
Homeland Security Grant Program for the National Capital 
Region. HSEMA has served in this role since 2007. From 2007 
through 2011, HSEMA has been responsible for administering more 
than $471 million to jurisdictions within the NCR. 
Historically, most of the funding has been in UASI which, as 
you know, provides funding to address the unique planning, 
organization, equipment, training, and exercise needs of high-
threat, high-density urban areas. This funding has provided the 
NCR with the opportunity to provide meaningful support to 
jurisdictions, allowing us to ensure that as a region we are 
addressing our challenges and preparing and equipping the boots 
on the ground, our first responders.
    As we transition to discuss regional issues, we are not 
able to do so without speaking of the collaboration that the 
National Capital Region enjoys because of the work of the 
Metropolitan Washington Council of Governments. The MWCOG 
provides an opportunity for partners from across the region to 
discuss and strategize around regional issues. These issues, 
from City Council Administrative Homeland Security, Emergency 
Preparedness Council, the National Capital Regional Senior 
Policy Group, and others.
    As a practical matter, the District of Columbia could not 
do what it does each day in serving its constituents and 
stakeholders if it did not have a strong relationship with 
partners within our borders, to include our Federal partners. 
Each day, we work with any number of entities from the National 
Park Service and the Park Police to the FBI, and Secret 
Service, to the Department of Homeland Security and the Office 
of the National Capital Region Coordination of FEMA and the 
Office of Personnel Management. Effective coordination and 
relationship building cannot wait for a crisis. It must be 
developed and nurtured on an ongoing basis.
    Likewise, we work on a daily basis with our colleagues from 
the Commonwealth of Virginia, the State of Maryland, and cities 
and counties from each jurisdiction that make up the National 
Capital Region. Aside from the regularly scheduled calls that 
the Senior Policy Group has to discuss regional issues, the 
District's representatives and the Director and Deputy Director 
of HSEMA attend monthly meetings.
    One of the issues and one of the goals that we have reached 
has been mentioned earlier, and that is the MATOC program and 
strengthening our multi-agency coordination among 
transportation agencies. The District, in our 24-hour, 365-day 
Joint All Hazards Center, we have combined our Traffic 
Management Center function as an improvement so that we can 
coordinate services.
    The District and its partners are involved in training and 
exercise activities from planning through execution. We have 
several members who have a seat on the Regional Exercise and 
Training Oversight Panel.
    Mr. Chairman, this concludes my remarks and I look forward 
to responding to any questions that you may have. Thank you for 
the opportunity to present this testimony.
    Senator Akaka. Thank you very much, Mr. Quander, for your 
statement, and to all of you, thank you very much for your 
statements.
    Mr. Hunter, you testified before a House Subcommittee in 
October that OPM had communication challenges in coordinating 
with NCR partners after the August 23 earthquake which resulted 
in the delayed announcement on the operating status of the 
Federal Government. My question to you is, would you please 
further explain these problems and whether they have been 
resolved.
    Mr. Hunter. Thank you, Mr. Chairman. We initially had 
difficulties in our communications capabilities from both our 
Government Emergency Telecommunications System (GETS) cards, to 
operate on traditional landline phones, as well as our wireless 
priority for cell service. Those difficulties were fairly short 
lived. As my colleague, Ms. Suit, mentioned, we were able to 
obtain some situational awareness through the Washington Area 
Warning Alert System during that point in time. We were able to 
also make contact with D.C. HSEMA as well as FEMA's Office of 
National Capital Region Coordination. So while we did have some 
initial difficulties in communication and we are working in an 
after-action capacity with FEMA and other agencies to look at 
how to strengthen those capabilities, we did have success 
through the Washington Area Warning Alert System.
    But if I could add, one of the things that we noted in 
dealing with the earthquake, as also my colleague, Mr. Muth, 
testified, is that in the initial response to any no-notice 
event, it is very chaotic. And through the fog, you will need 
to take some time to develop some level of situational 
awareness. That hampered our capabilities from the standpoint 
that we did not have immediate damage assessments, nor were we 
fairly certain at the initial onset exactly what had happened. 
So it takes time to gather that information and to make that 
decision.
    One of the things that we noted and we have strengthened in 
our D.C. Dismissal Guide Policy is that need for individual 
agencies to be able to act when there is an immediate need for 
the safety and security of their employees. They have that 
authority, and to not wait for OPM's decision when they need to 
proceed immediately.
    Senator Akaka. Thank you very much.
    This next question is for the five other witnesses as a 
followup question. It took nearly an hour and a half after the 
earthquake for NCR decisionmakers to participate in a regional 
conference call. The question is, were other NCR decisionmakers 
having trouble communicating, and what lessons were learned 
about NCR communication and coordination after the earthquake? 
Mr. Beckham.
    Mr. Beckham. Thank you, Mr. Chairman. Because the August 23 
event not only occurred or affected the National Capital 
Region, it also impacted other parts of Virginia and Maryland, 
as well, and I will leave it to my colleagues to restate this, 
but they had responsibilities that were statewide and were 
probably or most likely engaged in dealing with their 
particular leadership at the State level as well as their 
personnel to do the assessments not only in the National 
Capital Region, but the other parts of Maryland and Virginia.
    As Mr. Hunter did state, there was communication. He 
mentioned WAWAS. We also had our WebEOC operational as well as 
the fact that all Emergency Operations Centers were able to 
talk to each other at that time. The Regional Information and 
Coordination Communication System (RICCS), was also operational 
and was transmitting messages back and forth to all of the 
distribution on that system, including all of us here at the 
table, so that we did have our situational awareness and we 
were sharing information through that type of media.
    The conference call that you mentioned, I believe a page 
went out to the COG, which is the manager of the conference 
call, and they designated the time when everybody would be 
available, and as you mentioned, an hour and a half after the 
incident is the time when everybody could get together and 
answer any questions or resolve any issues that were occurring.
    Senator Akaka. Thank you. Mr. Jenkins.
    Mr. Jenkins. We have not looked at that issue. We are going 
to look at this issue and a number of others in response to the 
Committee's request, including the after action reports and 
lessons learned. But we have not looked at that issue at this 
point.
    Senator Akaka. Mr. Muth.
    Mr. Muth. It is interesting. As we are going back through 
this, in my mind, I was reminded that it took me a while to 
even figure out myself what was going on, as never experiencing 
that before. And our initial reaction at the State was to make 
sure all those nuclear power plants and other critical 
infrastructures were safe and up and running. So that took our 
initial attempt probably an hour or longer to even start.
    And being that--we have the responsibility for the whole 
State, so at no time did we say, OK, let us see what is going 
on in the NCR. We were monitoring traffic and everything else 
from Maryland's side, as I am sure Virginia was doing, as D.C. 
was. But from my office, speaking on my office alone, Emergency 
Management, we were not concentrating on the NCR at that point 
when that earthquake hit. So it may be that we need to work on 
identifying somebody that immediately concentrates on that 
piece.
    Senator Akaka. Thank you. Ms. Suit.
    Ms. Suit. When you say the decisionmakers, we abide by 
NIMS, by ICS. The decisionmakers are the boots on the ground 
during an emergency. We do not micro-manage the emergency 
response from the top down. The decisionmakers had the 
authorities necessary, already vested with them, to do what 
they needed to do during the initial response. They receive 
those authorities through code, through an Executive Order, and 
through both our State Virginia Emergency Response Plan, our 
Operations Plan--we call it the COVEOP--as well as the Local 
Emergency Operations Plan. So the people responding are not 
waiting for a decisionmaker on high to say it is OK to do this 
or to do that. They are acting. They are doing what they need 
to do.
    From a managerial level, we have colocated our 
decisionmakers for transportation, emergency management, and 
safety, public safety, with the State Police at the PSTOC in 
Fairfax. That is where I was also located. And so we were 
talking face-to-face. And I was also immediately communicating 
with the Governor. As you are aware, the earthquake was 
centered in Mineral, Virginia, and so we had a lot going on.
    I did know it was an earthquake. I went to high school in 
San Diego and immediately dove under my desk when an earthquake 
started.
    Senator Akaka. Thank you. Mr. Quander.
    Mr. Quander. When an event takes place like the earthquake, 
the event is first local, that local response where we have to 
assess the damage and respond immediately to the pressing 
issues. Once that is done, then we can inform our regional 
partners what issues we face and then we can take a look at the 
region, what is happening.
    But as Ms. Suit indicated, it is from the bottom up. We 
have to respond to the emergency. We have to address that 
emergency. Then we take a look at where we are in our 
respective jurisdictions and then where are we regionally. How 
are we responding. But we first have to put out the fire and 
then we deal with the other issues.
    Senator Akaka. Thank you. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    I would like to start down on this end of the table with 
the State and the District people, if I could, Mr. Chairman, 
and that is last January we had a snowstorm, and I am curious 
from all of your perspectives if that is a fair comparison to 
our preparedness in a terrorist event or if that is an apples 
and oranges comparison. Mr. Muth.
    Mr. Muth. Certainly. I do not think it is a comparison. 
First of all, what we experienced, what you experienced, was up 
and down the whole East Coast. So it was not the NCR that was 
gridlocked. It was the whole East Coast that was gridlocked.
    The reason for that was the storm in the morning was ice. 
They salted the roads. There was an increase in the 
temperatures. We had storms come through in the afternoon that 
were not of a frozen type that washed all the salt off. Before 
everything had a chance to be reapplied, it refroze again. It 
just happened to freeze again right at rush hour. So you had 
this perfect storm, no pun intended, that was all coming 
together at the same time.
    So I do not think a snowstorm and all its inherent problems 
that come along with that really can be a comparison to 
evacuations in any other term. I think each one is its own and 
has to be assessed on its own. That would be my thoughts.
    Senator Pryor. Yes, that is why I said it. Ms. Suit.
    Ms. Suit. I would absolutely agree. I was on 395 and had 
the misfortune of watching the plane go into the Pentagon and 
then was in the traffic for about 4 hours making my way out of 
the NCR that day.
    In the snowstorm, you had the added situation of the 
weather. We had people abandoning their vehicles, which is 
extremely problematic for our highway personnel, to get up 
there, get tow trucks and move those vehicles. I would not 
compare the two at all.
    What I would say is that we have had an opportunity to 
review what took place and to establish new policies, and I 
applaud OPM for embracing two things, an earlier decision and 
not bringing the workforce in when we have bad weather 
projected, but also embracing a strategy of staying in place. 
In any event it is safer for the public, for our citizens to 
stay in place. If we have a terrorist attack, if we have any 
kind of contamination, leaving the building exposes them to 
much higher levels of contamination and of unsafe situations 
than staying in place, and that is the biggest message that we 
need to really get out there with our citizens. Stay. Wait. 
Wait for more information. Do no harm. Stay where you are until 
we get you more additional information.
    Senator Pryor. Mr. Quander.
    Mr. Quander. I concur, but I also realize, as we all do, 
that disasters are rarely announced, and because of the events 
in January, because of the circumstances almost being a perfect 
storm, it caused severe problems for us. But we, I believe, 
have learned from that. When traffic does not move, citizens 
cannot get to where they need to be. They cannot get home. They 
cannot take care of their children. They cannot take care of 
their other responsibilities. So it has an impact.
    Although there may be different reasons, different 
scenarios, the result is the same, and we need to learn, and I 
think we have learned. We have made changes and improvements. 
And I think we have to look at the take-aways from January. 
What are we doing differently now? What are the changes? And 
that is the significance, I believe.
    Senator Pryor. Ms. Suit, let me followup on one thing you 
said about stay in place, and Mr. Quander alluded to it there, 
and that is the issue--one of the issues would be your children 
being in school. I know that what you are saying is staying in 
place is rational, it is the right policy and all those things, 
but when it is a parent and their child or children, they are 
going to try to get to those children, and that is just human 
nature and we understand that.
    So how should we handle that? Would you recommend, or have 
you all considered trying to work with the schools to sort of 
have safe places in school, communicate that to the parents, 
that if there is some event, they are going to be safe at 
school? I mean, what do you do? How does that piece of the 
puzzle fit in?
    Ms. Suit. Thank you, Mr. Chairman. There are several things 
we are doing. One, we utilized the Catastrophic Planning Grant 
Funds to do a very, very comprehensive study through the 
University of Virginia of citizens in the NCR. It was about, 
2,500 or 2,600 citizens who were surveyed for 30 minutes on 
their behavior, their projected behavior during an incident, 
and the incident was a dirty bomb incident. What we found was 
that they will stay in place if they have confidence that their 
children are safe.
    So through those catastrophic grants, we are now doing a 
follow-on phase two pilot program of working with select 
businesses in the District and working with them on having a 
program in place for their employees to be prepared and 
understand things like what is their school preparedness plan? 
What is going on with their children? After the earthquake, 
when those businesses were surveyed, we found that because of 
that pilot program and the ongoing training, their response was 
they waited until after 5 o'clock and had the best commute of 
their lives.
    And so it does work. It takes extra effort. It takes more 
intense training. We are already putting out just in our broad 
general preparedness messaging, know your children's school 
plans. Communicate your plan to family members in advance so 
that if phone service is out, they know you are safe and you 
are not rushing to get together. But that is huge cultural, 
behavioral changes and it will take time.
    Senator Pryor. I am going to ask the panel a good question, 
but it is kind of unfair how I am going to ask it because I am 
going to ask the five of you a question about Mr. Beckham's 
shop, and that is basically the question will be is how--
ONCRC's placement in FEMA is designed to help create efficiency 
and better communication, more streamlined, et cetera, and I do 
not want to ask Mr. Beckham this because I want to hear from 
you guys, how is that working? Is it beneficial to you all to 
have his office in FEMA where it is and doing the various 
functions it does? Go ahead.
    Mr. Muth. From my perspective, they were already in place 
when I came aboard at the State level, so I have no knowledge 
of how it was before that. But my interaction since I have been 
there in the just about 4 years has been very positive in that 
it provides an immediate conduit, if you will, to other 
information that we might need from FEMA within that NCR 
region.
    So I think they are now where they belong in life, it 
really does not matter to me. I think it kind of makes sense 
that they are in FEMA and they are dealing directly with us. We 
certainly get a lot of information pushed from that office 
almost daily on things that are happening and occurring. So I 
would have to say, from Maryland's perspective, anyway, it has 
been a positive interaction.
    Senator Pryor. Anybody else? Ms. Suit.
    Ms. Suit. I think we could utilize them more than we do, 
and that is probably more on my shoulders, reaching out to 
them, having them help us with introductions and coordination 
with Federal agencies that we do not have relationships with 
already, and we need to push that more within our Virginia 
decisionmaking area.
    As far as where they are located, the only way I can answer 
that is just from my own experience as being a member of a 
bureaucracy. Bureaucracies are very chain of command oriented. 
They are very rank oriented. And when you are at a certain 
level, then your peers work with you based on you being at that 
level. I think that if ONCRC was reporting directly to the 
Secretary, they would have probably more gravidas with the 
other Federal agencies. But I think because of the people at 
ONCRC, because of the relationships they have and the 
reputation they have, that they have that gravidas personally 
while they may not have the optimal amount positionally.
    Senator Pryor. OK.
    Mr. Quander. I agree with that assessment, but I will go 
further. We have had great access and great benefit as a 
result. Where the group sits, I am not sure as to the optimum 
position. But it has been effective.
    As an example, last week, we conducted a tabletop exercise 
and Mr. Beckham and his team participated and assisted in 
making sure that other Federal agencies, we had business groups 
there and it was an exercise that was a severe weather event. 
And so we had more than 200 individuals that participated. So 
when you have that type of partnership and you actually can 
make things happen, it is a benefit.
    Senator Pryor. Mr. Beckham, are you satisfied with all 
those answers? [Laughter.]
    Mr. Beckham. Yes, Mr. Chairman. I would mention, as I said 
in my opening statement, yes, we did start with the Office of 
Homeland Security when Governor Ridge stood it up right after 
September 11. We continue to have access to the DHS Office of 
the Secretary through the Assistant Secretary for 
Intergovernmental Relations Office, also the Under Secretary of 
Management's Office. We report through the Protection and 
National Preparedness Directorate, which is run by Deputy 
Administrator Manning. However, I must point out, while he has 
the administrator function for our office, we also report to 
Craig Fugate, the FEMA Administrator, Deputy Administrator 
Serino, as well as the Chief of Staff on a regular basis on a 
variety of issues, depending on what the issues are.
    I am fortunate that--I have been there 2 years--I inherited 
a staff that has the legacy and the institutional history of 
working in this program and have been able to leverage their 
relationships and been able to reach out to the various 
partners throughout the National Capital Region, both on the 
Federal and on the State level. Players do change with election 
cycles and what have you, but they are all committed to the 
mission. They have all been experts in--if they did not have 
particular expertise, they were not afraid to reach out and get 
it, and I think it has made it a beneficial experience.
    Senator Pryor. Thank you, Mr. Chairman.
    Senator Akaka. Mr. Jenkins, GAO was instrumental in helping 
my Subcommittee to examine the NCR's strategic planning efforts 
by providing recommendations to the region during the 
Subcommittee's 2005 and 2006 hearings on this topic. Would you 
comment on what improvements have been made between the NCR's 
2006 Homeland Security Strategic Plan and its current plan.
    Mr. Jenkins. There were two 2006 plans. The first one was, 
in a word, terrible, and then the second one really tried to 
address these six characteristics that I talked about and we 
did sort of outline, in broad fashion, roles and 
responsibilities. The big difference, I think, in the 2010 plan 
is they have taken that foundation and gotten much more 
specific in the various areas in terms of trying to identify 
the goals, have subordinated objectives that match those goals, 
as well as initiatives that would help them achieve the 
objectives.
    So it is much more structured. It is much more systematic 
than it was before. It is much more specific, as well, and they 
are, in terms of the initiatives they are taking, they are on 
the right track in terms of trying to develop, give 
responsibility to somebody and some group for achieving 
different objectives and setting measures for how they are 
going to achieve those. So I think they have made considerable 
progress since 2010.
    Senator Akaka. Thank you.
    Mr. Jenkins. Since 2006.
    Senator Akaka. Thank you.
    Mr. Hunter and Mr. Beckham, I am concerned about protecting 
Federal employees during emergencies. As we saw with the 
earthquake, we must be prepared for unexpected events. In this 
area, acts of terrorism are a constant threat, as well. So I am 
asking you to please discuss what efforts your offices have 
made to prepare Federal employees in the D.C. area for 
unexpected emergencies, such as a tornado or radiological dirty 
bomb. Mr. Hunter.
    Mr. Hunter. Thank you. First, we at OPM conducted a press 
conference just last week to roll out our new procedures, our 
new D.C. Dismissal Guide, and, in fact, FEMA was a partner with 
us at that press conference as well as the District of 
Columbia. So we provided information through the press 
conference itself, but we also did a webcast for Federal 
employees, as well, and the focus of the webcast is just not to 
lay out the new policies associated with our new D.C. Dismissal 
Guide but also to reiterate to our Federal employees that this 
really is a partnership, that we need their assistance to make 
this work, from developing a family plan to making sure that 
they have telework agreements in place and that they have found 
alternative ways to come and go into the city.
    So in addition to the press conference itself and the 
webcast, together with Steward's group and the Office of 
National Capital Region Coordination, we have worked through 
the Joint Federal Committee during the course of the last year 
to do some training exercises for emergency managers and to, 
again, to have them take that information back to Federal 
employees.
    We are participating with FEMA on NCRC in developing a web-
based training program, as well as a Federal preparedness 
brochure in the coming year.
    Senator Akaka. Thank you. Mr. Beckham.
    Mr. Beckham. Just to elaborate on what Dean just said, in 
the Federal Preparedness Program, it is an initiative in 
partnership with him, that OPM has started in our office, and 
the main focus of that initiative is to get DHS employees to 
have individual and family preparedness efforts underway and 
maintained and exercised so that if they have responsibilities 
in their employment, in their Federal employment, they do not 
have to worry about their family members, their children or 
adult day care or adult care issues that they may have.
    The hope is that once we get the program up and running and 
we reach out to DHS, we would envision having it extended to 
the entire Federal family so that they can go through this web-
based training and be able to identify those types of issues 
that they need to shore up in their own personal lives so that 
they cannot only take care of themselves, but make sure that 
their families are safe, as well.
    Senator Akaka. Thank you very much.
    Mr. Hunter, as has been discussed, OPM recently announced 
sheltering in place as an operating status option to protect 
the Federal workforce during severe weather events or 
emergencies. The term ``shelter in place'' may suggest that 
employees would need to stay in their offices for a prolonged 
period of time. Would you please discuss how OPM intends the 
sheltering in place to be used.
    Mr. Hunter. Thank you, Mr. Chairman. We implemented the 
shelter in place option to our D.C. Dismissal Guide to add an 
additional option to our tool kit. There has been much play 
about how we would invoke that during a snow emergency, but I 
would like to emphasize that it really has a broader role, and 
we have talked about terrorism capabilities here, but 
particularly for chemical, biological, nuclear, radiological 
types of threats, this could be an option that we would put in 
for a longer-based capacity.
    It is also important to note that individual agencies 
typically have their own building based shelter in place plans 
as a result of, or incorporated into their Occupant Emergency 
Plans.
    So, again, the intent is for this to be used really in 
extreme circumstances along the lines of chemical or biological 
threats. But we do see that there could be a very short-term 
utility for a snow event. But I would also want to caveat that 
with, again, it would be our intent to have people home before 
we got to those extreme circumstances.
    We would lean forward very proactively the day before a 
storm, perhaps, to announce an unscheduled leave, unscheduled 
telework policy whereby we bring less people into the city in 
the first place. We would perhaps follow that up if a storm 
occurred during the day with a staggered departure with a final 
departure time, for instance, having people leave no later than 
3 p.m. And after that point in time, if in consultation with 
our colleagues in the emergency management capacity and law 
enforcement, if there was a need for us to request people to be 
off of the roads so that the transportation entities could keep 
the roads clear in a snowstorm, we would do that, but again, it 
would be on a very temporary, short-term basis.
    Senator Akaka. Thank you very much.
    As a followup question to Ms. Suit, you use the phrase 
``staying in place'' rather than sheltering in place. Is there 
a difference between Virginia's policy and OPM's revised 
policy?
    Ms. Suit. No, and actually, OPM at the recent Emergency 
Preparedness Council meeting also was more apt to use the 
phrase ``stay in place.'' I think the media has co-opted that a 
bit into the sheltering in place. Sheltering in place is not as 
well received with the public and we find from a standpoint of 
a public message and crafting public messaging, sheltering in 
place does not have the same comfort level with the public as 
staying in place. Staying in place has more of a temporary 
connotation, an hour, 2 hours, 6 hours, long enough for the 
emergency to pass. Sheltering in place does insinuate in the 
mind of the public longer times.
    Now, I will say this. In the event of a radiological event, 
and we just had a report released on Monday from our working 
group here in the NCR on radiological and nuclear detection 
issues, we had a huge study that was done and this is brand new 
information, and that study does go into great depth as far as 
the number of hours and possibly days to stay in place, or 
shelter in the event of going beyond 6 hours, in place and how 
much more lives that will save by staying where they are as 
opposed to getting out and becoming exposed.
    And so this is all information that we are obtaining and 
acquiring, greatly in part because of the grants that you all 
have given us. They are working. They are informing our 
policies going forward and now we will take this information 
and incorporate that in the future into our strategic plan and 
additional things and investments that we make in the NCR and 
messaging going forward.
    Senator Akaka. Thank you. Senator Pryor.
    Senator Pryor. Thank you.
    Let me start with Mr. Beckham. I know it is hard enough to 
try to coordinate with all the various governmental entities 
that you have to deal with, and I know you have a myriad of 
them in this region that all need to interface and interconnect 
somehow, and it sounds like you are doing a great job there. 
But my question is, are you also trying to coordinate with the 
business community?
    Mr. Beckham. Yes, sir, and as was pointed out again in some 
of the testimony, first of all, talking about the Emergency 
Preparedness Council, the Director of the Metropolitan 
Washington Board of Trade sits on that council and represents 
the business community and their interests and their points of 
view. I cannot speak to how he disseminates the information 
from the Preparedness Council, but I do know that they have 
monthly meetings and I actually attended one when I first got 
here and they bring that information out to their membership.
    Another group we meet with, while not necessarily business, 
is the Consortium of Universities. We meet with the emergency 
managers and the preparedness officials with that organization 
and attend some of their training and exercises, and they are 
very engaged in those efforts that we have going here in the 
National Capital Region.
    We also worked with the Golden Triangle Business 
Improvement District (BID), which is in the center of the 
District, and used the work that we are doing with them as a 
model to hopefully reach out to the other BIDs around the 
District and use that to have them do some of the Occupant 
Emergency Planning and make sure that they have their 
workforces coordinated if there had to be a release for 
whatever reason and that they do not put additional stress on 
the transportation assets of the National Capital Region.
    Senator Pryor. Great. That is great.
    Mr. Hunter, let me ask you a similar question. When OPM 
does the various things that you do, when you set your policies 
and all that, do you consult with the business community to try 
to coordinate with them in any way?
    Mr. Hunter. As Mr. Beckham mentioned, during our policy 
revision this year, we coordinated our policy with the 
Washington Board of Trade and members associated with the 
Emergency Planning Committee. We recognize that the private 
sector often follows our lead from how they develop their own 
policies, so we did coordinate that policy in conjunction with 
the EPC and COG.
    Senator Pryor. OK. And do you do just the policy 
coordination, or do you also, when you have to make a decision 
that day on whether something closes or whatever and you 
actually make the call, do you try to coordinate with them at 
that point, or do they just key off of the decisions that you 
are making?
    Mr. Hunter. They key off the decisions. They are typically 
not involved in the COG calls.
    Senator Pryor. Yes. The reason I was asking is we talked a 
minute ago, one of the witnesses talked about sort of a phased 
leaving of the city or coming into the city or whatever effort 
during or after an event, probably, and I just did not know if 
you try to coordinate with the business community, because if 
you look at their numbers, Even though government is a huge 
industry here in this area, the private sector is quite a bit 
larger with a lot more people in this area.
    Let me ask about the ready.gov program. On the ready.gov 
Web site, it talks about make a plan and try to have a plan for 
yourself. What is the experience with that? Are people making 
plans? And if there is something going on, whether it is an 
earthquake or a snowstorm or whatever it happens to be and 
maybe the communication is not real clear in the beginning and 
everybody is unsure about really what is happening, are they 
sticking with their plan? Do we know? Mr. Beckham, maybe you 
might be best for this.
    Mr. Beckham. Obviously, ready.gov is a program that was 
rolled out nationally as well as in the NCR, but to the 
statistical request that you have, we would have to get back to 
you with the effectiveness of that program at this point.
    Senator Pryor. All right. Let me ask you about this, as 
well, then. The August earthquake, like September 11, 2001, and 
other types of incidents like that, not just in this area but 
elsewhere, in those type of events, often the region's 
telecommunication system is just very quickly congested. It is 
not inoperable, but it is just so jammed that it is not--not 
very many people are able to get on it, or, I should say, a lot 
of people are not able to get on it. Do you feel like the D.C. 
area has sufficient capacity in an emergency to keep all the 
lines of communication open or are we going to continue to see 
sort of a clogged telecom capacity here?
    Mr. Beckham. I understand that there was some overloading 
of the cell phone system here in the National Capital Region, 
but one of the messages that we are going to push out, and we 
are pushing out, is many folks use text messaging and Twitter, 
which require less bandwidth. I am not an expert on this----
    Senator Pryor. Right.
    Mr. Beckham [continuing]. But we are going to push out that 
if you want to get in communication with folks, using Twitter 
or text messaging capacity, you will have a better success rate 
of pushing your message forward.
    There was some congestion, as I mentioned, in the cell 
phone towers, but I think about an hour to an hour and a half 
or so after that, it began to reduce and it was back to a near-
normal state.
    Senator Pryor. Yes. One of the things we did on our 
Subcommittee--Mr. Chairman, that would be on this half of the 
table over here--but one of the things we did on our 
Subcommittee is that we had a hearing on social media and the 
impact that social media has in these events now. I thought it 
was very interesting. When you look around the country at some 
things that have happened recently, whether it is ice storms or 
tornadoes or whatever it may be, floods, people are wanting to 
communicate and really have that two-way communication all 
instantaneously which can be an amazing asset in a situation 
like that. So the people, if they have access to the bandwidth 
they need, et cetera, they are going to respond and they are 
going to participate and they are going to communicate and that 
is a very good thing.
    Did you have something you wanted to add?
    Ms. Suit. Just two things. Going back to your original 
answer about the plans, there was a survey that was done of the 
New York area after Katrina and we found that they went from 17 
percent to 19 percent, only a 2-percent rise in the number of 
families that had an emergency plan. We expected that it would 
have gone up higher because of Katrina. So that is a little bit 
of information. I mean, it is the New York area, not the whole 
Nation, but it gives you a little information.
    What we have also found is that by doing the more intense 
work directly with the business community like we are doing 
through the Catastrophic Planning Grant, we raise that to 80 to 
90 percent of the participants of that training. So the more we 
can use those Catastrophic Grant funds and other grant funds as 
well as our own investments to go into those kinds of more 
intensive, direct training programs, the more we see success in 
that area.
    And as far as bandwidth, bandwidth is finite. I mean, right 
now, we have the big issue taking place right here that I am 
sure you all are weighing in on with the D Block. Our public 
safety responders desperately need that extra bandwidth for 
public safety, and then the ability also to allow the private 
sector to lease back some of that space for use. But it is 
finite. The more you have smart phones and people downloading 
videos and doing games, that all uses up that same space and it 
cuts us off. And people have a natural tendency to go straight 
to the mobile phone when they want to communicate as opposed to 
defaulting to text messaging, which uses up much less space.
    And finally, it used to be we all had landlines at home. 
Now, even at home, you are going over the Internet for the most 
part with your communications. So the culture has changed and 
we have to change with it in how we respond from a policy 
standpoint.
    Senator Pryor. I do not know the difference in the numbers 
in New York versus New Orleans, but one of the things I learned 
in Katrina, again, as part of the Committee's work after 
Katrina, was that a lot of folks, a very high percentage of 
people down there, do have a plan because this is kind of 
ingrained in them from the beginning that you live in this 
certain area and it is prone to X, Y, and Z happening. It is 
going to vary region to region, and just given the experience 
and the expectations in that area.
    Mr. Chairman, thank you. That is all I have.
    Senator Akaka. Thank you.
    Mr. Hunter, I have been a strong supporter of increasing 
the use of telework in the Federal Government and I applaud 
OPM's efforts to implement my Telework Enhancement Act. As you 
stated, building a strong telework culture is important to 
making sure that government operations continue during 
emergencies. Will you please elaborate on how OPM is working to 
make sure agencies have integrated telework in their continuity 
of operations plans.
    Mr. Hunter. Thank you, Mr. Chairman. In updating our 
policy, our D.C. Dismissal Guide Policy, we provided additional 
information on incorporating telework. But I also want to point 
out that we have been working with the interagency community, 
both FEMA, GSA, the National Archives and Record 
Administration, to work toward an update of Federal Continuity 
Directive 1, to provide additional guidance on not only the 
training of employees for telework but also testing those 
capabilities and exercising them on a frequent basis.
    And we also have some encouraging news from the Employee 
Viewpoint Survey that we recently have received the results 
from that has showed us that in the National Capital Region, we 
have about 18 percent of people, Federal respondents, that 
indicated that they are teleworking at least once a week, and 
47 percent have indicated that they have the capability to 
telework at least some of the time. So we see that this has 
very positive implications for us on the emergency planning 
side.
    Senator Akaka. Thank you very much for that response.
    My last question is for the panel. A recent Washington Post 
editorial argued that the reluctance of area jurisdictions to 
cede power in decisionmaking to a central authority has 
hampered the NCR during a crisis and could exact a terrible 
price in the future. There is no one entity or person with the 
ability to make regional decisions when an emergency involves 
multiple NCR jurisdictions, and the multiple authorities have 
complicated communication among decisionmakers and the public. 
So what I would like to ask you is how do you respond to these 
concerns and how will you make sure that there is a seamless 
response to the next regional emergency? Mr. Muth.
    Mr. Muth. Thank you. First of all, we have--I am not sure I 
agree with that editorial. We have very robust mutual aid plans 
that are used every day, in and out of the Capital and Maryland 
to Virginia and vice-versa, that are very well versed and very 
robust.
    The resources that we are, I assume, we are talking about 
are resources that belong to local governments or State 
Governments, and to say that somebody would have overall 
authority to strip those from a State or a county and reassign 
those would be an interesting concept, to say the least. I 
think you might be infringing on the States' rights there.
    I think we have a very refined Incident Command System, as 
Terrie and others have mentioned today, and that allows for 
that expansion of the Incident Management System, if necessary. 
So where if we have something on the border, we do not 
necessarily worry about whose it is. We just go and do it and 
then we work on that Incident Command System as it grows.
    So is there one regional person in charge? No, there is 
not, and that is because you have independent governments that 
are involved in this whole thing. That does not mean that the 
governments cannot all work together in an emergency, and I 
think they absolutely would. I think there is still a long way 
to go to refine that and to make that operational and just not 
from the planning stage, because that is where it is right now.
    But I think it is there, and I still have to reiterate, 
going back, that Montgomery and Prince George's County are 
responding into D.C. every day and vice-versa and it works 
seamlessly. Nobody knows about it because it works seamlessly 
and it is there. It does not change just because there is an 
emergency. It is still the same system, the same process, et 
cetera.
    I think the only area where it may be worth looking at a 
little bit more is the non-traditional first responder 
equipment and getting more into public works, snowplows and 
those types of things, which generally are not thought of as a 
mutual aid response, in and out continuously.
    But the last thing I will add to that is that we all at 
State and local governments have very finite resources. Those 
are already taxed and engaged in whatever we are dealing with 
statewide, NCR being one of our parts of the State. And so 
there is no cache of equipment sitting somewhere like there is 
with radios to say that in a regional emergency, we will bring 
this cache of snowplows together and operators. It is all 
equipment that is used every day and it is already being used 
during an event.
    So I think the process needs to be working down the line, 
but if Washington calls for assistance from us, we are going to 
jump in and help Washington if at all possible. That is the way 
we do it every day and we will continue to do that. Thank you.
    Senator Akaka. Thank you.
    Ms. Suit. Mr. Chairman, I would answer that by saying that 
there is not one central decisionmaker in any disaster, any 
emergency situation. We use NIMS. We use ICS. The writer of 
that article needs to go online to FEMA's Web site and take 
ICS-100, and then they need to follow that on and take NIMS-
700. They need to learn ICS and incident management and how the 
National Response Framework is designed. It works.
    It worked at the Pentagon on September 11, 2001. When that 
plane hit the Pentagon, I was able to get a cell phone call 
out, one call out to the Governor. At that time, it was 
Governor Gilmore. I got the call out to his office. I said, I 
am on the highway. I have just watched a plane go into the 
Pentagon. By the time we hung up, Arlington County fire trucks 
were already at the Pentagon. Jim Schwartz, the Assistant Fire 
Chief, took incident command of that situation at the Pentagon. 
That is how ICS worked.
    It was not mandated then. It was not required for grant 
usage then. Now, it is required. Now, we make sure everyone is 
NIMS compliant or they cannot receive a dime of Federal 
Homeland Security money. That doctrine works, and folks that 
criticize that bottom-up response do not understand it. They 
need to go in. They need to learn how we do emergency 
management. The Governor's office becomes involved with 
messaging, with guidance, with issuing emergency declarations, 
but we never manage the emergency on the ground from a central 
decisionmaker's office from on high. That is not how 
emergencies work.
    And I would further say that the District is not unique. 
NCR is not unique. When we are dealing with a hurricane in 
Hampton Roads, we are dealing with the evacuation of the North 
Carolina Outer Banks up through the Virginia highway system. We 
are dealing with the largest Naval base in the world. We are 
dealing with one of the largest ports in this country and 
working with the Coast Guard on whether or not to shut down 
that port and when to move bridges and when to allow people to 
evacuate. It is always unified, working together in these 
decisionmaking cross-cutting manners with our Federal partners, 
our local partners, and our intrastate and interstate partners.
    So NCR is not unique in that. But if we all work through 
the National Response Framework and we understand it, and we do 
not make policy changes to confuse it, we will be OK.
    Senator Akaka. Mr. Quander.
    Mr. Quander. From the District's perspective, a centralized 
decisionmaker is not the point. It is an operational issue. It 
is from the bottom up. It is using the system, the NIMS system 
that we have, and we operationalize it. That is how you address 
the issues.
    One of the things that--the Mayor announced today that the 
District has undertaken and has completed a system of cabling, 
fiber optics, that will increase the capability within the 
District of 100 gigabytes bandwidth. It will be the largest 
usage or availability of bandwidth anywhere in the world, more 
so than Silicon Valley, more so than in New York, anyplace in 
the country, anyplace in the world. So agencies will be able to 
tie into a greater resource that will be available--that is 
available now. We did not have that in the past. We have that 
now. So we will be able to communicate more by using some of 
the electronic means and less on cell phones when we are able 
to communicate and get our messaging out.
    One of the other things that we are doing, again, not from 
who makes the decision but what we are doing, we spoke about 
developing family plans. We spoke about teleworking. We spoke 
about public awareness. We spoke about involving the business 
community. These are the things that we need to do to make sure 
that when we know that we have to act, we will know how to act, 
and that is where our focus really needs to be, not on who 
makes the call. That is really not the focus. It is following 
the plan, bottom up, using NIMS, and that is where we are going 
to see our greatest success. Thank you, sir.
    Senator Akaka. Thank you very much, Mr. Quander.
    Any other comments? Mr. Beckham.
    Mr. Beckham. Yes, sir. I concur with my colleagues and just 
want to mention that Secretary Suit mentioned that under the 
ICS system, it is designed for the smallest incident all the 
way up to the very large incident. ICS is designed not only for 
cross-functional purposes, but for cross-jurisdictional 
purposes and it can always expand into a unified command, which 
would bring in all of those decisionmakers, again, as I 
mentioned, whether it is function related or jurisdictionally 
related.
    Senator Akaka. Any other further comments? Mr. Jenkins.
    Mr. Jenkins. Mr. Chairman, I would just make one sort of 
fundamental point when I read the Post editorial, is that if 
you look at the NCR itself, the NCR is not an operational 
entity. It is a coordination entity, and there could be issues 
in how they coordinate and how they make decisions, but as the 
other witnesses point out, part of the problem with having a 
single person in control is that it assumes that the NCR is an 
operational entity in and of itself, which it is not.
    Senator Akaka. Mr. Hunter.
    Mr. Hunter. Just to add to what my colleagues said, I think 
what is equally important rather than having a single 
decisionmaker is to make sure that we are all operating with 
the same set of facts or from a common operating perspective. I 
think that is really key and I applaud the District of Columbia 
for some of their efforts with COG to look at how we are going 
to implement the concept of Regional Information Center and how 
we might share that type of information.
    Senator Akaka. Thank you very much.
    I would like to thank all of our witnesses for being here 
today and for your excellent responses. It is clear that the 
NCR has improved its emergency coordination considerably since 
September 11, 2001. However, serious challenges still remain. I 
look forward to working closely with my colleagues in the 
Senate and with the NCR stakeholders to improve regional 
coordination and make sure that the millions of residents and 
visitors to the NCR are safe. This has been, I feel, a good 
hearing and thank you again so much for your contributions.
    The hearing record will be open for 2 weeks for additional 
statements or questions other members may have.
    This hearing is adjourned.
    [Whereupon, at 4:14 p.m., the Subcommittees were 
adjourned.]
                            A P P E N D I X

                              ----------                              



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                 <all>

</pre></body></html>
